I~OV   HI Uti U'I:HP       AmtraK Ulll'NYI-U                                          ~1~·(j30·(j104                                    p.~
           lIov.19. 200S 1I:15AM         Olliee   01 Ins~eClor 11eneral                                   nv.      LJ I /          I.   t.




                                     NATIONAL RAILROAD PASSENGER CORPORATION
                                      .   OFFICE OF THE INSPECTOR: GENERAL
                                              OFFICE OF INVESTIGATIONS    .
                                                     INVESTlGA.TIVE REPORT

                        CASE: 08·021 TRAVEL AGENCY                    DATE OF REPORT: 11119/01l
                        REPORT PREPARED I8V~ SA
                        o Report of IntslView
                        o Report of Documents
                        t8l Other Activity (Describe): CLOSING REPORT
                       While assisting the Federal Bureau of fnve1Itlgallons, DIG·Of determined that an Amtrak
                       partner travel agency committed fraud by receiving refunds for rull·fare tickets that wern
                       purchased USing falae discount vouchers. During the inVestigation, agents learned that·
                       Amlrall has. no mechanism in place to searen fur unusually high refund rates for Ihelr
                       travel agency partners. Consequently, addttional fraudulent refunds may be occurring.
                       ab~otAmtral<s Imowlooge.

                       One of the unique characteristics of tile travel agency being Investigated by the FBI was
                       Its significantly bigh rate of refunds relative to tickets purchased. Befieving thai othsr
                       travel agencIes may be committing similar fraudulent activities, OIG-OI agents
                       researched the FY2007 lravel agency refund rate1l. The analysis highlighted Ihose
                       travel agencies with $.20 thousand Dr mor(l In gross sales and refund rates mor(l than
                       two slandard deviations from the average refund rate for all travel agencies thai mel the
                       sale$ crlleJia. In total. 23 travel agencies were highlighted Including the one alr",ndy
                       under Investigation. These agencies requested $344,53310 refunds for FY2007.

                       As lhe issue appeared to be systemic, agents believed OIG-AuQit would be best suited
                       to evaluate the high refund rate Issue and whether Amtrak has sufficient Internal controls
                       In place to properly Idenllfy potential Incidents' of rraud. IISents 5ubmttted a report
                       requesting th!\! AUdit review the Issue. Agents received II' phone call from WAS Audit
                       requesting more information about the Issue and indicated thai Audit would lool( Inlo Ihe
                       Issue further.

                       Considering: 1) the problem appears systemic. and 2) eiG-Audit Is reviewing the Issue,
                       ills recommended that the case be closed. OIG-OI could open new cases if DIG·Audit
                       finds indlvidualisslies thai need to be addressed.




                                                                                         ~Cj£i!]}~~"~~'
                                                                                               . h-~., . .
                                                                                              :, '-~\t ..
                                                     r                                    ::t,                    ~:'"i'<.~j1.
                                                  l\l
                       Supervisor Signature: .,;·--44--.....;.-
                                                                                         .'
                                                                                        ~.. ~_
                                                                                                .
                                                                                                   '1r'),":.
                                                                                                    •
                                                                                                              'VoJC;.\ll..,JI
                                                                                                         :4t1t~
                                                                                                                  '..
                                                                                                                     ...........   I




                       Deputy Inspector (leneralfCounsel Signature:
                                                                                          08·021        Cl~'i.og R~PQrt.doc
                                                                                         •                          Pogci ofl
